No.

IN THE
SUPREME COURT OF THE UNITED STATES

Brian J. Neary
(Your Name)

— PETITIONER

VS.
Jeff T.H. Pon (etal)

— RESPONDENTS)

PROOF OF SERVICE
Brian J.Neary, the Petitioner

, do swear or declare that on this date,
________ Rftptpmher 24th
, 202J-, as required by Supreme Court Rule 29 I have
served the enclosed MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
and PETITION FOR A WRIT OF CERTIORARI on each party to the above proceeding
or that party's counsel, and on every other person required to be served, by depositing
an envelope containing the above documents in the United States mail properly addressed
to each of them and with first-class postage prepaid, or by delivery to a third-party
commercial carrier for delivery within 3 calendar days.
I,

The names and addresses of those served are as follows:
Solicitor General of the United States, Department of Justice; Room 5614
950 Pennsylvania Ave., N.W
Washington. D. C 2Q530-0QQ1

I declare under penalty of peijury that the foregoing is true and correct.
Executed on

September 24th

20_2i

(Signature)
C-1

